OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S HIV/AIDS
ACTIVITIES IN COTE D’IVOIRE
AUDIT REPORT NO. 7-681-12-004-P
MARCH 6, 2012




DAKAR, SENEGAL

Office of Inspector General


March 6, 2012


MEMORANDUM

TO:                  USAID/West Africa Acting Mission Director, Lisa Franchett

FROM:                Regional Inspector General/Dakar, Gerard Custer

SUBJECT:             Audit of USAID’s HIV/AIDS Activities in Côte d’Ivoire
                     (Report No. 7-681-12-004-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft and have included them in Appendix II.

The report includes six recommendations. On the basis of actions taken by the mission and
supporting documentation provided, we determined that final action has been taken on
Recommendations 1 and 2 and that management decisions have been reached on
Recommendations 3, 4, 5, and 6.

Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief 

Financial Officer with the necessary documentation to achieve final action. 


I appreciate the cooperation and courtesy extended to my staff during the audit.





U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     In-Country Staff Lacked Management Authority ..................................................................... 4 


     Reported Results Were Not Always Verifiable........................................................................ 5 


     Partner Did Not Clearly Document Beneficiaries’ Eligibility .................................................... 8 


Evaluation of Management Comments................................................................................... 10 


Appendix I—Scope and Methodology .................................................................................... 11 


Appendix II—Management Comments ................................................................................... 13 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOTR            agreement officer’s technical representative
AVSI            Associazione Voluntari per Servici Internationale
COTR            contracting officer’s technical representative
FY              fiscal year
OVC             orphans and vulnerable children
PEPFAR          President’s Emergency Plan for AIDS Relief
PNOEV           Programme National de prise en charge des Orphelins et Enfants Vulnérables
SUMMARY OF RESULTS

According to the United Nations, Côte d’Ivoire has the highest national HIV prevalence in West
Africa, estimated at 3.9 percent.1 This prevalence translates to 450,000 people in Côte d’Ivoire
infected with HIV/AIDS, and 440,000 orphans under the age of 17 affected by the disease.

USAID does not have a bilateral mission in Côte d’Ivoire, but supports a small staff managing
activities under the President’s Emergency Plan for AIDS Relief (PEPFAR).2 At the time of the
audit, six USAID personnel were in Côte d’Ivoire administering day-to-day program activities.
These included one senior country program coordinator, two project managers, one budget
analyst, one program manager, and an operations specialist. In addition, at the request of the
office of the U. S. Global AIDS Coordinator (OGAC), USAID funds the OGAC position of the
PEPFAR country coordinator (who has no USAID authorities or responsibilities). The
USAID/West Africa mission provides finance, contracting, and other critical support services for
the agreements it has awarded.

In fiscal year (FY) 2010, USAID obligated $49 million and disbursed $47 million for its HIV/AIDS
program activities in Côte d’Ivoire. During this period, the mission worked to implement these
activities through agreements with several partners. USAID’s Regional Inspector General in
Dakar selected for audit three HIV/AIDS agreements designed to help orphans and other
vulnerable children (OVC) (Table 1). For FY 2010, USAID/West Africa obligated $4.9 million
and disbursed $3.8 million for these three agreements, implemented by AVSI (Associazione
Voluntari per Servici Internationale, an Italian nongovernmental organization), Save the
Children, and PATH.
                                      Table 1. Audited Activities


Implementing                                                                     Agreement Amount
                                          Program
   Partner                                                                           and Dates

                 Implements activities that have been developed directly and
                 consistently with the National OVC Program (PNOEV) of the            $9.5 million
AVSI             Ministry of the Family, Women and Social Affairs. AVSI             Nov. 22, 2010–
                 provides services to HIV/AIDS orphans and other vulnerable          Oct. 31, 2014
                 children by working with community-based organizations.
                 Provides care and support to OVC and builds the capacities
                 of local subpartners and government entities. Key activities
                 include strengthening the national OVC program by building
                                                                                     $11 million
Save the         the operational capacities of the government, building the
                                                                                    Sept. 1, 2008–
Children         capacities of local subpartners to provide quality care and
                                                                                    Oct. 31, 2014
                 support for OVC and their families, supporting quality
                 education for OVC, and reducing vulnerability to HIV/AIDS
                 among OVC and their families and communities.

1
   Joint United Nations Programme on HIV/AIDS, “Côte d’Ivoire Country Situation 2009,”
http://www.unaids.org/ctrysa/AFRCIV_en.pdf, accessed on January 11, 2012.
2
  PEPFAR received funding for fiscal years 2004 through 2008 from the United States Leadership Against
HIV/AIDS, Tuberculosis, and Malaria Act of 2003, Public Law 108-25. The act authorized $15 billion to be
appropriated over those 5 years to combat the three diseases. The 2008 act reauthorizing PEPFAR
(Public Law 110-293) authorized an additional $48 billion to carry out activities for fiscal years 2009
through 2013.


                                                                                                      1
Implementing                                                                  Agreement Amount
                                         Program
   Partner                                                                        and Dates

                Implements the Infant and Young Child Feeding Program.
                The goals of the program include (1) providing support for
                changes in national nutrition policy, guidelines, and         $46 million worldwide
                programs, (2) strengthening the capacity of service               agreement
PATH
                providers, (3) increasing nutritional care and support for      Sept. 22, 2006–

                OVC (0–5 years) and HIV-positive pregnant and lactating         March 19, 2012

                women, and (4) gathering information for improving program

                implementation and practices. 


The objective of the audit was to determine whether USAID/West Africa’s activities to support
OVC were providing care and support to these children. The audit team found that, while the
beneficiaries visited felt that the program has had a positive impact, evidence was lacking to
support the results reported by program officials and to determine whether the activities were
achieving their goals.

Although program managers are in routine contact with the implementing partners and monitor
their activities, program managers are not allowed to advise the implementing partners on
contractual or budgetary changes because the program managers have not been designated as
activity managers. The authority of these managers is limited even though they have all
received the required COTR training.

Specifically for AVSI’s program, the audit determined that results reported for FY 2010 were not
verifiable because of problems with AVSI’s reporting database and poor record-keeping
procedures. We were unable to verify any of the five indicators selected for testing during this
audit. For example, although AVSI reported assisting 12,843 OVC and their families in
FY 2010, we were unable to verify these results. The audit determined that AVSI did not always
clearly document the HIV/AIDS-related vulnerability and eligibility of OVC.

Similarly, the audit determined that results reported by Save the Children for FY 2010 were not
verifiable because of poor record-keeping procedures. For example, although Save the
Children reported assisting 9,665 OVC and their families in FY 2010, we were unable to verify
this result, because the supporting documentation was not available from five of the nine
subpartners implementing program activities.

PATH primarily assisted the national government’s program by providing training to national and
regional health officials at hospitals and social centers. Additionally, PATH conducted in-service
training for 272 health-care workers.

Specifically, the audit disclosed the following weaknesses:

•   In-country staff lacked management authority needed to run the program (page 4).

•   Results reported by AVSI and Save the Children were not always verifiable (page 5).

•   AVSI did not clearly document beneficiaries’ eligibility (page 8).




                                                                                                      2
To address the weaknesses noted above and in detail later, the report recommends that
USAID/West Africa:

1. 	 Determine whether in-country managers of USAID’s President's Emergency Plan for AIDS
     Relief activities in Côte d’Ivoire should be designated as activity managers through fiscal
     year 2012 and clearly define their roles and responsibilities accordingly (page 5).

2. 	 Analyze the capabilities of current and incoming personnel in Côte d’Ivoire and grant them
     an effective and appropriate level of authority for the day-to-day management of activities
     under the President’s Emergency Plan for AIDS Relief, taking into account their unique
     operating environment (page 5).

3. 	 In conjunction with Associazione Voluntari per Servici Internationale and Save the Children,
     develop and implement procedures for verifying reported data with source documentation,
     documenting key assumptions and calculations, and maintaining documentation to support
     results and other program data reported to USAID (page 8).

4. 	 Perform and document a data quality assessment of reported data of Associazione Voluntari
     per Servici Internationale and Save the Children activities to ensure compliance with USAID
     guidelines and document results of the assessment (page 8).

5. 	Require Save the Children to conduct and document training for its subpartners on
    monitoring and evaluation and the use of the data collection tools established by the
    Programme National de prise en charge des Orphelins et Enfants Vulnérables (page 8).

6. 	Develop and implement procedures that require Associazione Voluntari per Servici
    Internationale to (1) use the President’s Emergency Plan for AIDS Relief guidelines to verify
    the eligibility of all orphans and vulnerable children who receive assistance as part of the
    program and (2) document and maintain a record of each orphan and vulnerable child’s
    eligibility at the centers where the children receive assistance from the program (page 9).

Detailed findings appear in the following sections. The audit scope and methodology are
described in Appendix I. Appendix II presents the full text of management comments; our
evaluation of management comments is on page 10.




                                                                                               3
AUDIT FINDINGS 

In-Country Staff Lacked
Management Authority
In its Automated Directives System (ADS), USAID has several requirements related to the
management of USAID-funded contracts and agreements. ADS 303.3.14 requires that an
agreement officer’s technical representative (AOTR) be designated for any signed agreement,
and permits the designation of an alternate AOTR as warranted. Further, ADS 202.3.4.3.a
states that project management may designate a core team member as an activity manager,
whose role is specified in ADS 202.3.4.3.b (Example 5):

       In some cases, a project may encompass multiple countries and be funded by
       USAID/Washington or from a regional platform, where the contracting officer’s
       technical representative (COTR) is also based. USAID may then designate
       Activity Managers in each country to provide appropriate oversight and
       management of the project at the country-level.

This section of ADS also states that there is considerable flexibility in structuring key roles
among core members of a development objective team, and it is important for all members to
clearly understand the particular role they are assigned. Moreover, ADS 202.3.4.5 requires that
“USAID Missions/Offices that manage DO [Development Objective] teams . . . take appropriate
and sufficient steps to ensure that these teams have the capacity to function effectively.”

The USAID PEPFAR program in Côte d’Ivoire is large—the FY 2012 budget is anticipated to be
more than $53 million with 14 activities—and operates in a complex environment. USAID
closely collaborates with the Centers for Disease Control and Prevention on PEPFAR activities,
all of which are overseen by a PEPFAR coordinator who reports directly to the Ambassador.
There is no USAID mission in Côte d’Ivoire; hence, there is no contracting authority in-country.
Contracting and financial oversight are provided by COTRs and AOTRs in the regional
USAID/West Africa office in Accra, Ghana, and for worldwide programs in Washington, D.C. All
contractual and financial transactions must be administered by officials in these locations, and
no one in Côte d’Ivoire has authority to change contracts, agreements, or work plans or to make
budgetary decisions without approval from abroad. These restrictions have posed problems for
the program as described below.

At the time of the audit, six USAID personnel were in Côte d’Ivoire administering day-to-day
program activities. These included one senior country program coordinator, two project
managers, one budget analyst, one program manager, and an operations specialist. In
addition, at the request of OGAC, USAID funds the OGAC position of the PEPFAR country
coordinator (who has no USAID authorities or responsibilities). These personnel rely heavily on
USAID/West Africa for administrative matters such as filling staffing vacancies; this reliance has
caused unnecessary delays and difficulties for program implementation.

USAID’s PEPFAR program in Côte d’Ivoire is approved for 18 positions, yet filling these
vacancies has been difficult not only because of the recent civil unrest in the country, but also
because USAID/West Africa must approve most personnel decisions. Although the managers
in Côte d’Ivoire are acutely aware of their needs and know locals available to fill the open
positions, the in-country managers have little input into the final decisions. The office has tried


                                                                                                 4
to fill 13 of the 18 approved positions for 2 years with USAID/West Africa’s oversight but has
been unsuccessful partly because of staffing constraints at USAID/West Africa: the Côte d’Ivoire
office is one of 18 in the region that receive administrative services from USAID/West Africa.

Furthermore, although the program managers are in routine contact with the implementing
partners and monitor the activities of the implementing partners, they are not allowed to advise
the implementing partners on contractual or budgetary changes because the program managers
have not been designated as activity managers. The authority of these managers is limited
even though they have all received the required COTR training.

Because designated COTR/AOTRs seldom, if ever, conduct monitoring and evaluation visits to
Côte d’Ivoire, there are many opportunities for miscommunication and confusion. For example,
AOTRs often communicate directly with the implementing partners or via the implementing
partners’ home offices, sometimes bypassing the in-country managers completely—especially
regarding financial decisions. This form of communication removes what is often considered a
key component in project management control from the local managers.

In explaining its slowness to fill vacancies in Côte d’Ivoire, USAID/West Africa cited a lack of
adequate staffing to provide sufficient contract and support services to USAID field offices and
at the same time implement new Agency-wide initiatives related to contracting and procurement.
Also, the program staff have not been provided with the necessary authority because this is how
things have been operating in Côte d’Ivoire, and the regional mission has never realized the
need to change procedures.

The USAID PEPFAR team in Côte d’Ivoire already faces numerous challenges overseeing
multiple activities and managing a large annual program budget without authority over the
implementation of their program. Unless they are granted greater authority, they may not be
able to carry out the program in the most effective and efficient manner, and the program’s
overall goals may not be achieved.

Therefore, we make the following recommendations.

   Recommendation 1. We recommend that USAID/West Africa determine whether in-
   country managers of USAID’s President's Emergency Plan for AIDS Relief activities in
   Côte d’Ivoire should be designated as activity managers through fiscal year 2012 and
   clearly define their roles and responsibilities accordingly.

   Recommendation 2. We recommend that USAID/West Africa analyze the capabilities
   of current and incoming personnel in Côte d’Ivoire and grant them an effective and
   appropriate level of authority for the day-to-day management of activities under the
   President’s Emergency Plan for AIDS Relief, taking into account their unique operating
   environment.

Reported Results Were Not Always
Verifiable
To measure performance effectively and make informed management decisions, missions must
ensure that quality data are collected and made available. USAID provides its development
objective teams with extensive guidance to help them manage for improved results. Among this
guidance is ADS 203.3.5.2, which states that the USAID mission or office and assistance
objective teams should be aware of the strengths and weaknesses of their data and the extent



                                                                                              5
to which the data’s integrity can be trusted to influence management decisions. According to
ADS 203.3.5, “Data Quality,” performance data should meet data quality standards for validity,
integrity, precision, reliability, and timeliness, and missions should ensure that data used are of
sufficiently high quality to support the appropriate level of management decisions.

The auditors attempted to verify the following five selected indicators for FY 2010:

1. 	 Number of eligible clients (adults and children) who received food or other nutrition services

2. 	 Number of eligible adults and children provided with protection and legal aid services

3. 	 Number of eligible adults and children provided with psychological, social, or spiritual
     support

4. 	 Number of eligible children provided with health-care referral

5. 	 Number of eligible children provided with education or vocational training

However, we discovered several instances in which results reported by AVSI and Save the
Children were inaccurate or not verifiable.

AVSI. We were unable to verify the results for all five indicators listed because documentation
was disorganized. Furthermore, AVSI uses a database to compile the results reported, but the
data in it are maintained on a cumulative basis, making it difficult to reconcile with the quarterly
or yearly results reported to USAID. AVSI officials admitted to us that it would be impossible to
verify the results for the five indicators listed because documentation was not maintained for
that purpose. In addition, USAID had not conducted a comprehensive data quality assessment
for these indicators. Although AVSI has been reporting results to USAID since 2008 and
recognizes the limitations in the database for providing relevant information, AVSI has not
addressed this issue.

AVSI officials informed us that only one indicator could be verified: Number of eligible adults
and children provided with a minimum of one care service. We attempted to verify this indicator
but discovered the following problems:

• 	 AVSI reported that 450 beneficiaries were assisted during the second quarter of FY 2010 by
    its subpartner, Tends-Moi La Main, but documentation provided to the audit team supported
    assistance to only 204 beneficiaries (less than 50 percent of the reported result).

• 	 AVSI reported that 450 beneficiaries were assisted during the second quarter of FY 2010 by
    the Koumassi social center but was unable to provide any documentation to support this
    result.

• 	 AVSI reported that 593 beneficiaries were assisted during the second period of FY 2010 by
    the social center in Yopougon, but documentation provided to us supported assistance to
    only 309 beneficiaries. At the same social center for the fourth quarter of FY 2010, AVSI
    reported that 585 beneficiaries were assisted, but documentation provided supported
    assistance to only 445 beneficiaries.

• 	 AVSI reported that 500 beneficiaries were assisted during the fourth quarter of FY 2010 in
    Bouaké, but documentation provided showed that 509 beneficiaries were assisted.


                                                                                                  6
Save the Children. In several instances, results reported by this implementing partner were
not verifiable. We attempted to verify the results reported by subpartners for the indicator
Number of eligible adults and children provided with a minimum of one care service. For this
indicator, Save the Children reported 520 for the fourth quarter of 2010 and a cumulative total of
9,665 as of September 30, 2010. Of the number 520, we attempted to verify 372 (from selected
subpartners); however, we were unable to verify this amount, as shown in Table 2.

                  Table 2. Results Reported and Results Verified (Audited)

                                                               Results     Results
                    Subpartner’s Name            District
                                                              Reported     Verified
                CIP/CAMES                      Guiglo            37           0
                AMEPOUH                        Blolequin         69           0
                DROIT A L’EDUCATION
                                               Toulépleu         47           0
                ET AU DEVELOPPEMENT
                NOUTOUS                        Danané            34           0
                AFRIQUE-ESPOIR                 Bangolo          108           0
                PREVENTION SANS
                                               Duékoué           77          77
                TABOU
                Total                                           372          77

According to Save the Children officials, data maintained in the areas of Blolequin, Toulépleu,
and Guiglo were destroyed during political unrest following the disputed presidential election in
November 2010. In the areas of Danané and Bangolo, the results reported by the partners
could not be verified because the registers supporting the data were not all readily available.
Some of the available registers did not contain dates, which would allow proper allocation to
appropriate reporting periods. Save the Children officials informed us that in April 2011 they
began using a new database into which all their subpartners enter data collected from the
activity/intervention sheets maintained at the community level. In those areas where the
registers were not available, we attempted to verify the most recent data reported by the
partners in FY 2011. However, we could not verify the figures reported for FY 2011 because
none of the subpartners maintained a copy of their database as of September 30, 2011. Only in
the area of Duékoué did we receive all supporting registers; there we were able to validate the
results reported by the subpartner.

The problems described above indicated that the implementing partners and USAID did not
perform adequate data validation or have adequate internal controls to ensure proper collection
and reporting of results. Additionally the data collection tools employed by AVSI were
inadequate to meet the data quality standards demanded by USAID in the management of its
projects. USAID should implement, in coordination with AVSI, internal controls including a
database capable of collecting and retaining data, and periodic validation of the integrity of the
collected data through spot checks. The problems with Save the Children’s reported data were
exacerbated by the fact that subpartners’ staff members operating at the community level were
not comfortable using the complex data collection tools developed at the national level by
PNOEV. In addition, Save the Children did not develop a comprehensive approach to
monitoring activities implemented by its subpartners. For example, Save the Children officials
informed us that they had not developed checklists for site visits or any tools to validate the data
received from the sites. Also, Save the Children did not have any specific site visit reports.



                                                                                                  7
Periodic verification of reported results helps ensure that consistent and reliable data are
collected for reporting, management decision making, and resource allocation. Without reliable
performance information, programming decisions may not always be sound. Therefore, this
audit makes the following recommendations.

   Recommendation 3. We recommend that USAID/West Africa, in conjunction with
   Associazione Voluntari per Servici Internationale and Save the Children, develop and
   implement procedures for verifying reported data with source documentation,
   documenting key assumptions and calculations, and maintaining documentation to
   support results and other program data reported to USAID.

   Recommendation 4. We recommend that USAID/West Africa perform and document a
   data quality assessment of data reported for Associazione Voluntari per Servici
   Internationale and Save the Children activities to ensure compliance with USAID guidelines
   and document results of the assessment.

   Recommendation 5. We recommend that USAID/West Africa require Save the
   Children to conduct and document training for its subpartners on monitoring and
   evaluation and the use of the data collection tools established by the Programme
   National de prise en charge des Orphelins et Enfants Vulnérables.

Partner Did Not Clearly Document
Beneficiaries’ Eligibility
The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008, which reauthorized appropriations for
PEPFAR, states that “children who have lost a parent to HIV/AIDS, who are otherwise directly
affected by the disease, or who live in areas of high HIV prevalence may be vulnerable to the
disease or its socioeconomic effects.” According to program officials, this statement constitutes
the definition of OVC for the program.

In FY 2010, AVSI reportedly reached 12,843 OVC and their family members (program
beneficiaries). However, during visits to AVSI program sites, auditors could not verify the
eligibility of recipients because the centers providing services did not maintain records
documenting how or why beneficiaries had been admitted to the program.

At the first OVC site visited, the Yopougon social center in Abidjan, only one of 17 OVC records
selected for eligibility verification contained documentation showing that the recipient met
eligibility criteria established by PEPFAR. The remaining 16 records indicated only that
recipients were either HIV-negative or their status was unknown. As a result, we were unable to
determine why the children were accepted to AVSI’s PEPFAR-funded program.

At the second OVC site in Bouaké, we were unable to verify four of five OVC records selected
for review because program officials did not have the files readily available.

Additionally, AVSI and its subpartners follow different rules for eligibility. For example, AVSI
does not require verification of HIV/AIDS status for acceptance to its program, but AIPS, a
subpartner, requires all OVC and their family members to provide evidence of direct impact of
HIV/AIDS. AIPS also requires OVC and their family members to undergo testing and



                                                                                               8
counseling prior to acceptance to the program. However, according to those working for AVSI,
it has no clear process for verifying the HIV/AIDS status of program beneficiaries or their
families. Personnel usually determine the beneficiaries’ HIV/AIDS status merely by noting their
physical appearance or asking them about their status, but do not require any evidence of
HIV/AIDS status or of the impact of the disease on their lives.

As a result, the program may have assisted beneficiaries who were not eligible for the program.
AVSI officials at the Yopougon office stated that a major challenge of the program is that
resources are too limited to meet the level of demand in the community. This challenge is
acknowledged by the PEPFAR 2012 Technical Considerations Report, which states: “The vast
numbers of children who are potential beneficiaries for USG [U.S. Government] assistance far
outstrip resources available—a keen reminder of the need to assist country partners to identify
and to target resources to those who are most in need of additional support.” To ensure the
eligibility of future participants in OVC programming, we make the following recommendation.

   Recommendation 6. We recommend that USAID/West Africa develop and implement
   procedures that require Associazione Voluntari per Servici Internationale to (1) use the
   President’s Emergency Plan for AIDS Relief guidelines to verify the eligibility of all
   orphans and vulnerable children who receive assistance as part of the program and (2)
   document and maintain a record of each orphan and vulnerable child’s eligibility at the
   centers where the orphans and vulnerable children receive assistance from the program.




                                                                                              9
EVALUATION OF MANAGEMENT
COMMENTS
USAID agreed with all six recommendations in the draft report. Having reviewed the actions
taken by the mission and the supporting documentation provided, we have determined that final
action has been taken on Recommendations 1 and 2 and that management decisions have
been reached on Recommendations 3, 4, 5, and 6. Our evaluation of management comments
is shown below.

Recommendation 1. The mission agreed with this recommendation and has designated all
program management personnel as activity managers until August/September 2012, when the
new PEPFAR country manager is to arrive in Côte d’Ivoire. The roles for AOTR/COTR and
activity managers as defined by the contracting office were included in management’s response.
This action constitutes final action on Recommendation 1.

Recommendation 2. The mission agreed with this recommendation and has initiated steps to
ensure that all members of the PEPFAR team in Côte d’Ivoire are provided with the level of
support needed until the arrival of the incoming USAID country manager in September 2012.
This action constitutes final action on Recommendation 2.

Recommendation 3. The mission agreed with this recommendation, which it believes will help
strengthen the program in Côte d’Ivoire. The mission suggested changes to some language in
the findings section; however, because the mission provided no documentation to support its
proposed changes, we did not incorporate them. The mission indicated a final action date of
October 31, 2012. We assume these actions will include developing and implementing
procedures for verifying reported data with source documentation, documenting key
assumptions and calculations, and maintaining documentation to support results and other data
reported to USAID.        Accordingly, a management decision has been reached on
Recommendation 3.

Recommendation 4. The mission agreed with this recommendation and intends to conduct a
data quality assessment by July 31, 2012, which will be submitted to the Audit Performance and
Compliance Division for final action. Accordingly, a management decision has been reached on
Recommendation 4.

Recommendation 5. The mission agreed with this recommendation and plans to complete
training for its subpartners on monitoring and evaluation and the use of data collection tools by
July 31, 2012. Accordingly, a management decision has been reached on Recommendation 5.

Recommendation 6. The mission agreed with this recommendation and plans to develop and
implement procedures that require Associazione Voluntari per Servici Internationale to (1) use
the President’s Emergency Plan for AIDS Relief guidelines to verify the eligibility of all orphans
and vulnerable children who receive assistance as part of the program and (2) document and
maintain a record of each orphan and vulnerable child’s eligibility at the centers where the
children receive assistance from the program by July 31, 2012. Accordingly, a management
decision has been reached on Recommendation 6.




                                                                                               10
                                                                                        Appendix I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on the audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions in accordance with our audit objective, which
was to determine whether USAID/West Africa’s activities to support OVC were achieving their
main goal of providing care and support to these children.

In planning and performing the audit, the audit team focused on FY 2010 activities and
evaluated their achievements. Specifically, we reviewed and evaluated the following:

   FY 2010 country operational plan
   Program work plans
   Program agreements
   USAID and partner reports related to the programs audited
   Financial reports and supporting documentation

We interviewed key USAID personnel, implementing partner staff, and beneficiaries We
conducted the audit at the PEPFAR office in Abidjan and at the activity sites of implementing
partners in four of Côte d’Ivoire’s 19 regions. Audit fieldwork for this audit was performed from
November 2 to 18, 2011, in Abidjan and other cities and covered HIV/AIDS activities related to
OVC that took place in FY 2010. The implementing partners selected for this audit were AVSI,
Save the Children, and PATH.

For FY 2010, USAID’s obligations and disbursements for the HIV/AIDS activities in Côte d’Ivoire
totaled $49 million and $47 million, respectively. For FY 2010, USAID obligated $4.9 million and
disbursed $3.8 million for the three audited agreements in Côte d’Ivoire.

Methodology
To answer the audit objective, we reviewed activities implemented by the three projects. We
also reviewed available agreements, progress reports, and work plans as well as PEPFAR
indicators reported by USAID/West Africa for its HIV/AIDS activities in Côte d’Ivoire in FY 2010
for these implementing partners. Specifically, we reviewed the following indicators:

	 Number of eligible clients (adults and children) who received food or other nutrition services

	 Number of eligible adults and children provided with protection and legal aid services

	 Number of eligible adults and children provided with psychological, social, or spiritual

   support





                                                                                                11
                                                                                        Appendix I


   Number of eligible children provided with health-care referral

   Number of eligible children provided with education or vocational training

We also met with the PEPFAR team in Côte d’Ivoire to gain an understanding of its activities
and reviewed available agreements, progress reports, and implementing partner work plans.
We reviewed applicable laws and regulations and USAID policies and procedures pertaining to
USAID/West Africa’s PEPFAR OVC program, including ADS guidance and the 2003 and 2008
acts discussed on page 1 that authorize funding for PEPFAR. During site visits, we observed
activities in progress and interviewed personnel from implementing partners, service providers,
and beneficiaries to obtain their feedback.

Site visits were conducted in four regions where OVC activities were being implemented: (1)
Région des Lagunes, (2) Région des Dix-Huit Montagnes, (3) Région du Moyen Cavally, and (4)
Région du Vallée Bandama. The sites visited were in unrestricted areas of these regions.
Because this testing was based on a judgmental―not a statistical―sample of programs and
sites, the results and overall conclusions related to this analysis were limited to the items tested
and could not be projected to the entire audit universe. However, we believe that our work
provides a reasonable basis for our conclusions.




                                                                                                 12
                                                                                      Appendix II



MANAGEMENT COMMENTS 





Memorandum

To:            Gerard Custer, Regional Inspector General/Dakar

From:          Yves Kore, Regional Office of Acquisition and Assistance USAID/West Africa

Thru:          Lisa Franchett, Acting Mission Director, USAID/West Africa

Date:          January 27, 2012

Subject:       Mission Response to the Draft Regional Inspector General’s Audit Report
               No. 7-681-12-00X-P on USAID/West Africa HIV/AIDS (PEPFAR) Activities in
               Côte d’Ivoire


This memo transmits USAID/West Africa’s response to and comments on the Draft Audit Report
No. 7-681-12-00X-P of 19 December 2012 on USAID/West Africa HIV/AIDS Activities in Côte
d’Ivoire. We generally concur with all six recommendations in the Draft Report but offer several
comments and suggest that the overall audit conclusion be reformulated to more accurately
reflect the sum of findings in the field (see “USAID/WA General Comments and Clarifications”
below).

USAID/West Africa (WA) extends its appreciation to the Regional Inspector General
(RIG)/Dakar for its scheduled audit of its HIV/AIDS activities in Côte d’Ivoire. RIG’s presence in
Abidjan for several weeks again sent a clear message to USAID and other USG PEPFAR CI
implementing partners (IPs) that they will be held accountable for the management and effective
use of USG funds. We appreciate the specific observations and recommendations in the report
that go toward strengthening USAID’s management of its activities.

USAID/WA and its on-site staff take this opportunity to reiterate its recommendation that future
audits of this program be joint USAID-CDC audits. The highly integrated bi-agency management
structure of the program makes it impossible to tease out and attribute agency-specific outputs
and impact among the approximately 45 awards sponsored by the two agencies. Moreover,
continual unilateral audits by USAID of its PEPFAR partners do not produce the intended
potential impact on the integrated program. A coordinated audit that treats all implementing
partners equally would send a strong message of a single USG team applying the same
principles for improved program impact.



                                                                                               13
                                                                                       Appendix II



Below please find our responses to the specific findings and recommendations in the audit
report, preceded by a few general comments and clarifications.



USAID/WA General Comments and Clarifications:

General Comment A. Regarding the overall audit finding: We note that one of the three audited
partners (IYCN/PATH) had only positive audit findings and that for the other two partners; the
auditors saw considerable evidence of activities that are strengthening local sub partner social
centers/platforms, and OVC families. Based on this, we believe that a more accurate overall
audit finding would combine the auditors’ initially formulated preliminary finding with their later
revised finding, i.e.: “The audit team found that the program is at least partially achieving
its goals and has had a positive impact on the beneficiaries visited, but the team was
unable to obtain sufficient evidence to support the results reported by the mission to
determine whether the mission is fully achieving its goals.”

General Comment B. The report makes no distinction between USAID/WA and USAID/W (field
support) projects. With field support projects (the bulk of the USAID/PEPFAR CI portfolio), there
has been little programmatic (as opposed to financial) input or oversight from Washington, with
COTR/AOTRs generally relying on and supporting the in-country staff as activity managers. If
the USAID/WA Regional Health Office has overall management responsibility for the entire
USAID/PEPFAR CI portfolio (including field support), it will be important to clearly define roles,
responsibilities, and operating procedures for managing both field support and Accra-managed
mechanisms.

General Comment C. Page 1, Para 3, and Page 4, Para 5: Staffing: The report does not
accurately describe USAID/PEPFAR staffing. At the time of the audit, the USAID staff included
1 senior country program coordinator, two project managers, 1 budget analyst (who was in the
U.S. in training), and, as contractors, 1 program manager and 1 operations specialist. In
addition, at the request of OGAC, USAID funds the OGAC position of the PEPFAR country
coordinator (who has no USAID authorities or responsibilities).

General Comment D. Page 2, Table: The cited AVSI agreement is AVSI’s new Cooperative
Agreement managed by USAID/West Africa, not the central agreement under which the audited
activities were performed. Also, the program description for AVSI does not describe AVSI’s work
very well. It would be better to use the same description as is provided for Save the Children.
Finally, we wonder whether it would make sense to specify the amount of funds obligated for
IYCN/ PATH Cote d’Ivoire instead of – or in addition to – listing the amount of the worldwide
agreement.

General Comment E. Page 4, last paragraph, and Page 5, first paragraph: “However, because
of the lack of authority granted to these 5 individuals. …” The most important point to make in
this regard is that it is essential to have an experienced USAID direct hire to head the program
in-country and to liaise with USAID/W and USAID/WA officials. Same paragraph: “Confusion
regarding authorities. …” Everyone is clear that no one currently in Cote d’Ivoire has authority
over program matters under the current scenario of having AOTRs in Accra. This could be
addressed by appointing the USAID direct-hire country program coordinator/director as AOTR
for the Accra awards, with the program managers named as activity managers to support the
AOTR.


                                                                                                14
                                                                                   Appendix II



Responses to the Specific Audit Recommendations:

Recommendation 1:

We recommend that USAID/West Africa COTRs/AOTRs determine whether USAID Côte
d’Ivoire PEPFAR program managers should be designated as “USAID Activity Managers” for
programs continuing through the FY 2012 COP and if so, clearly define their roles and
responsibilities accordingly.

We agree with the recommendation.

Until the arrival of a USAID PEPFAR Country Manager in Abidjan, the USAID Regional Health
Director will assume the management role of the Cote d’Ivoire team. As of now, all program
manager personnel hired by USAID are considered Activity Managers. This arrangement is
expected to last until August / September 2012 when the new PEPFAR Country Manager
arrives. At that time, the Country Manager will determine the AOR/COR and Activity Manager
Division as appropriate. The roles for AOR/COR and Activity Managers are defined by the
Contract Office and is captured in the following chart:


Activity Manager                  Agreement/Contracting                Officer’s
                                  Representative(AOR)/COR

Activity Manager                  Agreement/Contracting                Officer’s
                                  Representative(AOR)/COR
Member of Development             Member of Development Objective team
Objective team
Designated by the Team            Designated by the AO/CO in writing
leader
Assists AOR carrying out          Performs tasks designated to them in
administration of award           administering a specific contract/grant or CA
Responsible for achieving         Responsible for grant or contract progress
results
Resolves issues & problems        Resolves issues/problems with the AO/CO
with SOT/Office
Involved in planning/             Involved in planning /achieving /Monitoring at
achieving/ monitoring at          award level
activity level


Recommendation 2:

We recommend that USAID/West Africa analyze current and anticipated personnel capabilities
in Côte d’Ivoire and determine and implement an effective and appropriate level of autonomy for
the day-to-day management of the USAID PEPFAR activities in Côte d’Ivoire that takes
advantage of the unique operating environment of the Côte d’Ivoire PEPFAR team.




                                                                                            15
                                                                                        Appendix II



We agree with the recommendation.

Until the arrival of the incoming USAID Country Manager, Brian Howard serves as the USAID
Focal Point, who is responsible for overseeing the overall USAID portion of PEPFAR Cote
d’Ivoire, contributes to the PEPFAR Country Operation Plan process, and liaises with USAID
West Africa closely. The amount of autonomy is limited by the fact that Mr. Howard is an
institutional contractor, and other USAID management staff are too junior still. Therefore USAID
West Africa will continue to play a significant management and mentorship role vis-à-vis the
Cote d’Ivoire team. Operationally, this means that the entire Cote d’Ivoire team would go to
Accra to do a 3-day USAID Orientation (1/22-1/25/12) to learn more about the USAID system.
At the same time, the USAID West Africa Regional Health Director and Regional HIV/AIDS
Advisor will be traveling frequently to Cote d’Ivoire, at a minimum of monthly visit, to work
closely with not just the USAID staff, but also the larger PEPFAR team and implementing
partners.


Recommendation 3

We recommend that USAID/West Africa, in conjunction with AVSI
and Save the Children, develop and implement procedures for verifying reported data with
source documentation, documenting key assumptions and calculations, and maintaining
documentation to support results and other data reported to USAID.

Management Response: We agree with the recommendation, which we believe will help
strengthen our program, but we would like to make the following comments.

Page 7, Para 1: “AVSI officials admitted to us that it would be impossible to verify the results for
the five indicators listed because documentation was not properly maintained and the database
did not produce useful information for that purpose.” To accurately describe what happened,
and avoid suggesting (inaccurately) that AVSI was knowingly failing to comply with M&E
requirements, it would be better to say, “It became apparent to both the audit team and AVSI
officials during our work sessions that it would be impossible to verify …”

The report states: “Although AVSI has been reporting results to USAID for three years … and
recognizes the limitations in the database for providing relevant information, AVSI has not
addressed this issue.” For the sake of completeness and fairness, we would note that while
AVSI Cote d’Ivoire indeed used the (inadequate) database designed under its Washington-
managed mother award in East Africa, AVSI Cote d’Ivoire had already included an overhaul of
its database in the first-year work plan of its USAID/West Africa-managed Cooperative
Agreement

Page 7, Paragraphs 4-7: Regarding cited numbers comparing AVSI reports to source
documentation: While the overall point about inadequate documentation is valid, the cited
numbers are misleading and might suggest to some readers that AVSI was over reporting. In
fact the various numbers of beneficiaries reported by AVSI and sub partners were not “during
the second quarter” (as stated in the audit report) but rather (as instructed by the PEPFAR CI
Strategic Information Branch) as of the end of the second quarter, i.e. during quarters 1 and 2
combined. The auditors’ attempts to align those multi-quarter numbers with source documents
for a single quarter were thus attempts to compare apples and oranges. (Admittedly, the failure
of AVSI and USAID/PEPFAR staff to clarify this before the auditors undertook the comparison


                                                                                                 16
                                                                                       Appendix II


underscores the main point that M&E practices were insufficiently clear, transparent, and
documented. But that does not obviate the irrelevancy of the comparison.)

Pages 7-8, Table 1 and the discussion following it: For Danane and Bangolo, “results verified”
are listed as 0, with the explanation that “results reported by the partners could not be verified
because the registers supporting the data reported were not all readily available.” We do not
disagree but would note, for clarification, that in fact the registers that were readily available
would have easily permitted verification of considerably more than 0 results. The problem was
that sifting through numerous registers to count up the unduplicated “number of eligible adults
and children provided with a minimum of one care service” would have required a painstaking,
time-consuming exercise (an exercise that local NGO sub partners had to do manually every
three months, until Save the Children introduced its new database). Given limited time and the
possibility that incomplete or unclear registers might prevent a complete analysis/comparison
anyway, the auditors understandably chose not to undertake this exercise. The point is that
registers that were readily available did allow verification that children were receiving services;
they did not allow, with a reasonable investment of the auditors’ time and effort, to match
precise reported numbers to source documents.

Actions to address these recommendations, while already under way, will require time to
complete and should be informed by results of the RDQA discussed below under
Recommendation 4.

Target Date: October 31, 2012. Action: AOTR for AVSI and Save the Children, with support of
USAID Abidjan.


Recommendation 4

We recommend that USAID/West Africa perform a data quality
assessment of reported data of AVSI and Save the Children activities to ensure
compliance with USAID guidelines and document results of the assessment.

Management Response: We agree with this recommendation and would welcome guidance
regarding its implementation. A DQA conducted by the AOTR in October 2011 for the AVSI
program is a good foundation for AVSI to improve the functioning of its M&E system, especially
at the management unit level, and is complementary to the RIG’s work. In addition, even before
the current audit was announced, the PEPFAR Cote d’Ivoire (USAID and CDC) team had
envisioned its first routine data quality assessment of OVC partners. This is now being planned
for April 2012, to include M&E systems as well as selected indicators and to include selected
Save the Children and AVSI sites. It will be repeated and extended to other indicators and sites
as part of a plan for routine data monitoring. We believe this approach, complementing ongoing
capacity building and coaching, will serve to strengthen our program more effectively than a
one-time, external DQA of Save the Children and AVSI.

Target Date: July 31, 2012. Action: AOTR for AVSI and Save the Children, with support of
USAID Abidjan.


Recommendation 5.

We recommend that USAID/West Africa require Save the Children


                                                                                                17
                                                                                          Appendix II


to conduct training for its sub-partners on monitoring and evaluation and the use of the
data collection tools established by the PNOEV.

Management Response: We agree with this recommendation but would like to note that Save
the Children has provided extensive M&E training of sub partners and community caregivers,
before and during as well as since the audited period (training 168 people in Year 1 of its award,
148 in Year 2, and 204 in Year 3). The need for further M&E training, a significant investment,
underscores the very real tension between working with potentially sustainable local resources
(local NGOs and community caregivers) and demands for relatively complex data. This is an
ongoing challenge for Save the Children and most other OVC partners.

Target Date: July 31, 2012. Action: AOTR for Save the Children, with support of USAID
Abidjan.


Recommendation 6:

We recommend that USAID/West Africa develop and implement
procedures that require AVSI to (1) use the President’s Emergency Plan for AIDS Relief
guidelines to verify the eligibility of all OVC who receive assistance as part of the program
and (2) document and maintain each OVC’s eligibility at the centers where the OVCs
receive assistance from the program.

Management Response: We agree with the recommendation regarding documentation of OVC
selection criteria. But the auditors’ discussion of “eligibility” seems to suggest that current
selection practices are almost haphazard and ignore an assumed (or wished for) “either eligible
or ineligible” checklist tied to HIV status. This is inaccurate and fails to do justice to the
complexity of the challenge and to efforts that AVSI and USAID/PEPFAR have made to serve
the most vulnerable children within the PEPFAR guidance.

Page 9, Para 2: “… the centers did not maintain records documenting how or why beneficiaries
had been admitted to the program”: AVSI documents the vulnerabilities (including HIV-related
vulnerabilities) of every child who is considered for inclusion in the program, using a standard
data collection tool. Both children with HIV in the family and children without known HIV in the
family but considered vulnerable to HIV are included in the program. What is inadequately
documented is AVSI’s criteria for selecting one child over another and how this choice relates
specifically to an HIV-related vulnerability.

Page 9, Para 3: “… only one of the 17 OVC records selected for eligibility verification was
clearly documented with justification for meeting the OVC criteria established by PEPFAR. For
the remaining 16, evidence of their vulnerability was not clearly documented, only indicating that
they were either HIV negative or their status was unknown.” Again, the child’s vulnerabilities are
documented; the specifically HIV-related vulnerability to be reduced through inclusion in the
program is not adequately documented. HIV status is not the only relevant criterion, nor should
it be. As seen in the PEPFAR legislation cited in the audit report, PEPFAR’s definition of OVC
(i.e. of “eligibility”) is quite broad, leaving considerable discretion to country teams to work within
their specific contexts, as well as within the evolving international understanding of vulnerable
children and best intervention practices. HIV in the family, while clearly an important
consideration, is not a necessary or required part of eligibility. In the relatively high-prevalence
zones where AVSI works, an out-of-school child sleeping in the marketplace would probably be
“vulnerable to the disease” and thus “eligible,” even without known HIV in the family. The


                                                                                                    18
                                                                                       Appendix II


auditors’ own somewhat confusing use of “eligible” and “most eligible” suggests the complexities
of selecting the most vulnerable children, within PEPFAR criteria, as beneficiaries.

This is a struggle for many OVC partners, especially in a country without other (non-HIV)
interventions for children. The USAID/PEPFAR team’s main practical solution has been to insist
that partners identify OVC through HIV-related “entryways” (PMTCT, HIV testing, HIV care
facilities, local PLWHA associations, etc.), as opposed to going into the community looking for
vulnerable children. The USAID/PEPFAR team had previously noted (as documented in semi­
annual partner performance reviews) that AVSI’s inclusion criteria were insufficiently clearly tied
to specific HIV-related vulnerabilities, having evolved from AVSI’s institutional priorities (not
specific to HIV) and prior work in higher-HIV-prevalence eastern Africa. The current RIG
recommendation will help us to continue to advance in the right direction, but not through a
simple “positive-or-negative” eligibility check.

Target Date: July 31, 2012. Action: AOTR for AVSI, with support of USAID Abidjan.




                                                                                                19
 




 

    U.S. Agency for International Development 

           Office of Inspector General 

          1300 Pennsylvania Avenue, NW 

             Washington, DC 20523 

                Tel: 202-712-1150 

                Fax: 202-216-3047 

               www.usaid.gov/oig
